la
APPENDIX A — MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, DATED NOVEMBER 27,2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-55154
SOUTHWEST REGIONAL
COUNCIL OF CARPENTERS,
Plaintiff- Counter-Claim-Defendant-Appellee,
v.

MICHAEL MCCARRON,
AKA WILLIAM MICHAEL MCCARRON,
Defendant-Third-Party-Plaintiff-Appellant,
v.
DECARLO & SHANLEY, P.C.,
Third-Party-Defendant-Appellee.
D.C. No. 2:14-cv-02762-NS-JC
MEMORANDUM’

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

2a
Appendix A
Appeal from the United States District Court
for the Central District of California
James V. Selna, District Judge, Presiding
Submitted November 25, 2019"
San Francisco, California
Before: THOMAS, Chief Judge, and TROTT and
SILYERMAN, Circuit Judges.
Michael McCarron appeals prose the district court’s
judgment dismissing his third-party claims against the
law firm DeCarlo &Shanley, P.C., and awarding costs
in an action brought by Southwest Regional Council of
Carpenters (“SWRCC”) under the Labor Management
Reporting and Disclosure Act (“LMRDA”). We have
jurisdiction under 28 U.S.C. § 1291. We review de novo
the district court’s dismissal for failure to state a claim.
Depot, Inc. v. Caring for Montanans, Inc., 915 F.3d 643,
652 (9th Cir.), cert, denied, No. 19-77, 2019 WL 4922669
(Oct. 7, 2019). We review the district court’s award of
costs for an abuse of discretion. A. G. v. Paradise Valley
Unified Sch. Dist. No. 69, 815 F.3d 1195,1202 (9th Cir.
2016). We affirm in part and vacate and remand in part.
The district court correctly concluded that
McGatron’s third-party claims under California law
against DeCarlo & Shanley were preempted under the
Employee Retirement Income Security Act’s (“ERISA”)
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

3a
Appendix A
express preemption provision, 29 U.S.C. § 1144(a).
McCarron’s state-law claims were premised on the
law firm’s advice that he, as a trustee of Southwest
Carpenters Training Fund, an ERISA trust fund, and
an officer of SWRCC, should cause SWRCC to repay
a lease overcharge because the lease was a prohibited
transaction under ERISA. Accordingly, the state-law
claims bore on an ERISA-regulated relationship and
therefore were preempted. See Depot, Inc., 915 F.3d at
666. We therefore affirm the district court’s dismissal
of McCarron’s third-party claims.
The district court overlooked its responsibility
under Fed. R. Civ. R 54(d)(1) to provide reasons for
its denial of costs to McCarron as a prevailing party
against SWRCC on SWRCC’s LMRDA claim. See Ass’n
of Mexican-American Educators v. State of California,
231 F.3d 572, 591-92 (9th Cir. 2000) (en banc) (there is
a presumption in favor of awarding costs to a prevailing
party, and the district court must give reasons for its
refusal to award costs). We therefore vacate the district
court’s judgment in part and remand with instructions
for the district court to explain its ruling.
The motion for judicial notice (Docket Entry No.
14) is denied.
The parties shall bear their own costs on appeal.
AFFIRMED in part; VACATED and REMANDED
in part.

4a
APPENDIX B — AMENDED JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA,
DATED JANUARY 4, 2019
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 2:14-CV-02762 JVS (JCx)
SOUTHWEST REGIONAL COUNCIL OF
CARPENTERS, AN UNINCORPORATED
ASSOCIATION,
Plaintiff,
v.
MICHAEL McCARRON, AN INDIVIDUAL,
Defendant.
AND RELATED COUNTERCLAIMS
AND THIRD-PARTY CLAIM.
Honorable James V. Selna
AMENDED JUDGMENT
For the reasons so stated in its orders:
(1) The Court hereby enters judgment in favor of
Defendant Michael McCarron, also known as William
Michael McCarron, and against Plaintiff Southwest

5a
Appendix B
Regional Council of Carpenters. Although Plaintiff
Southwest Regional Council of Carpenters established
liability on its sole remianing claim under Section 501(a)
of the Labor Management Reporting and Disclosure Act
(29 U.S.C. § 501(a)), Plaintiff Southwest Regional Council
of Carpenters sustained no damages. Defendant Michael
McCarron, also known as William Michael McCarron, is
the prevailing party on this claim.
(2) The Court hereby enters judgment in favor
of Counterdefendant Southwest Regional Council of
Carpenters against Counterclaimant Michael McCarron,
also known as William Michael McCarron, on all
counterclaims. Counterclaimant shall take nothing.
(3) The Court hereby enters judgment in favor
of Third-Party Defendant DeCarlo & Shanley, A
Professional Corporation against Third-Party Plaintiff
Michael McCarron, also known as William Michael
McCarron, on all third-party.claims. Third-Party Plaintiff
shall take nothing.
(4) Plaintiff/Counterdefendant Southwest Regional
Council of Carpenters and Third-Party Defendant
DeCarlo & Shanley are prevailing parties and shall
recover their costs.
(5) This certified final judgment ends all claims,
counterclaims, and third-party claims among the
Southwest Regional Council of Carpenters, DeCarlo
& Shanley, A Professional Corporation, and Michael
McCarron, also known as William Michael McCarron.

7a
APPENDIX C — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE CENTRAL
DISTRICT OF CALIFORNIA,
DATED NOVEMBER 19, 2018
CV14-2762 JVS (JCx)
SOUTHWEST REGIONAL COUNCIL
OF CARPENTERS
v.
MCCARRON
ORDER REGARDING THIRD-PARTY
DEFENDANT’S MOTION TO DISMISS
Third-Party Defendant DeCarlo & Shanley, A
Professional Corporation (“D&S”) moved to dismiss
Defendant Michael McCarron’s (“McCarron”) First
Amended Third-Party Complaint pursuant to Federal
Rules of Civil Procedure 12(b)(1) and (b)(6). Mot., Docket
No. 500. McCarron filed an opposition. Opp’n, Docket No.
501. D&S replied. Reply, Docket No. 502.
For the following reasons, the Court grants the
motion to dismiss. The Court dismisses McCarron’s claims
against D&S with prejudice.

8a
Appendix C
I. BACKGROUND1
McCarron alleges the following. The Southwest
Carpenters Training Fund (“Training Fund”) is a multi­
employer benefit plan that provides an apprenticeship
program for union carpenters. Docket No. 329 II 7.
As a multi-employer benefit plan, the Training Fund
is regulated under the Employee Retirement Income
Security Act (“ERISA”), 29 U.S.C. § 1144(a) et seq. The
Southwest Regional Council of Carpenters (“Council”) is a
labor organization affiliated with the United Brotherhood
of Carpenters and Joiners of America (“UBC”), and
its members receive education and training from the
Training Fund. Id. 11 5. McCarron served as Executive
Secretary-Treasurer of the Council from August 1999 to
August 2013. Id. 1114. As Executive Secretary-Treasurer,
McCarron was the Council’s chief executive officer
and responsible for the Council’s day-to-day business
activities. Id. D&S is counsel to the Training Fund, the
Council, and the UBC. Id. 1111 8,16.
The Training Fund leased properties from the Council
for use as training facilities. Id. If 17. D&S, fearing that
McCarron would replace it as counsel to the Council,
1. In support of its motion to dismiss, D&S requests judicial
notice of (1) 29 documents already filed on the docket for this action,
and (2) McCarron’s opening appellate brief in his appeal to the Ninth
Circuit of the Court’s grant of summary judgment to the Council.
Request for Judicial Notice, Docket No. 500-2. Courts may take
judicial notice of federal court filings. Lee v. City of Los Angeles,
250 F.3d 668, 689 (9th Cir. 2001). The Court therefore grants the
requests for judicial notice.

9a
Appendix C
conspired with the Training Fund to manufacture grounds
for McCarron’s removal. Id. 11 16. In so doing, D&S and
the Training Fund conspired to submit bills for alleged
overcharge leases, advised McCarron to pay the bills on
behalf of the Council, had the Training Fund accept the
payments, and then later removed McCarron for his role
in paying the overcharge bills. Id.
In May 2013, the Training Fund told McCarron that
certain leases were overcharged and requested a refund
for two separate periods totaling $5,364,970,10. Id. 1117.
D&S attorney John DeCarlo instructed McCarron that he
“better pay this money back,” immediately because the
Training Fund was facing an audit from the Department
of Labor, and the financial books needed to be balanced. Id.
UU18,19. McCarron, as the Council’s Executive SecretaryTreasurer, relied on this advice and refunded the Training
Fund the full requested amount on behalf of the Council.
Id. 111118,22. D&S never advised McCarron that he should
refrain from refunding the money to the Training Fund.
Id. 11 21. Nor did D&S request the return of the money
from the Training Fund despite its knowledge that the
leases were not overcharged. Id. 11 24.
In April 2014, the Council sued McCarron for breach
of fiduciary duty in violation of the Labor-Management
Reporting and Disclosure Act (“LMRDA”), 29 U.S.C.
§ 501(a), alleging that McCarron breached his fiduciary
duties by failing to obtain authorization from the Council’s
governing board before refunding the lease overcharges.
Docket No. 1. The Court granted the Council’s motion for
summary judgment, finding that McCarron breached the

10a
Appendix C
LMRDA and that his breach caused damages, in part
because of McCarron’s own admissions under Federal
Rule of Civil Procedure 36 that the rents were set at fair
market rates, and entered judgment against McCarron
for $5,364,970.10. Docket No. 191 at 14-16; Docket No.
339. The judgment was then reversed on appeal by the
Ninth Circuit because the Council could not be entitled
to the amount it wrongfully overcharged the Training
Fund, and thus the Council’s allegations did not form the
basis for actual damages. Docket No. 494 at 3. The Ninth
Circuit upheld the Court’s finding that McCarron violated
the LMRDA by paying the overcharge bills without
presenting them to the Council’s trustees for approval in
violation of the Council’s bylaws. Id. at 2-3.
In May 2015, McCarron was granted leave to file
a third-party complaint against D&S and the Training
Fund.2 Docket No. 274. As to D&S, McCarron alleges
federal law claims for indemnity and contribution3 and
2. On May 16, 2016, the Court granted the Training Fund’s
motion to dismiss McCarron’s First Amended Third-Party
Complaint in its entirety as to the Training Fund. Docket No.
458-1. The Court dismissed all claims against the Training Fund
with prejudice because (1) McCarron failed to show he can seek
contribution or indemnity under the LMRDA, and (2) the state-law
claims against the Training Fund for restitution, conversion, money
had and received, mistaken receipt, and conspiracy were preempted
by ERISA. Id.
3. McCarron does not expressly style his claims for indemnity
and contribution as federal claims. Docket No. 329111127-31. However,
the Court has already determined that McCarron cannot sue for
indemnity or contribution under state law because he brings those

?

11a
Appendix C
state-law claims for negligence, breach of fiduciary duty,
breach of contract, fraud, and conspiracy. Docket No.
329 1111 27-31, 39-70. McCarron seeks recovery of the
$5,364,970.10 and damages incurred for McCarron’s loss
of employment. Id., Prayer for Relief. D&S now seeks to
dismiss the First Amended Third-Party Complaint in its
entirety. Mot., Docket No. 500.4
II. LEGAL STANDARD
A complaint must contain “a short and plain statement
of the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a). Rule 12(b)(6) requires courts to dismiss
a complaint for failure to state a claim. Fed. R. Civ. P. 12(b)
(6). To overcome a motion to dismiss under Rule 12(b)(6), a
plaintiff must allege “enough facts to state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007). A claim has “facial plausibility”
if the plaintiff pleads facts that “allow[] the court to draw
the reasonable inference that the defendant is liable for
claims for breach of fiduciary duty in violation of the LMRDA, and
federal law determines whether defendants held liable under a
federal statute may seek indemnity and contribution from a third
party. Docket No. 458-1 at 3 n.6; see also Mortgages, Inc. v. U.S. Dist.
Court for Dist. ofNev., 934 F.2d 209,212 (9th Cir. 1991) (per curiam).
The Court therefore construes McCarron’s claims for indemnity and
contribution against D&S as federal claims.
4. D&S previously moved to dismiss the First Amended ThirdParty Complaint on essentially the same grounds as the instant
motion. Docket No. 479. However, the Court granted McCarron’s
simultaneous motion to stay and denied the motion to dismiss without
ruling on the merits. Docket No. 485 at 5.

12a
Appendix C
the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009).
In resolving a 12(b)(6) motion under Iqbal and
Twombly, courts must follow a two-pronged approach.
First, courts must accept all well-pleaded factual
allegations as true. Iqbal, 556 U.S. at 678. At this step,
courts can only consider the complaint, materials
incorporated into the complaint by reference, and
matters subject to judicial notice. Metzler Inv. GMBH
v. Corinthian Colleges, Inc., 540 F.3d 1049, 1061 (9th
Cir. 2008). Second, assuming the well-pleaded factual
allegations are true, courts must “determine whether
they plausibly give rise to an entitlement to relief.” Iqbal,
556 U.S. at 679. This determination is “context-specific,”
requiring courts to draw on their experience and common
sense. Id. There is no plausibility, however, “where the
well-pleaded facts do not permit the court to infer more
than the mere possibility of misconduct.” Id.
III. DISCUSSION
A. The Court has already determined that federal
law provides no right to indemnity or contribution
under the LMRDA.
McCarron seeks indemnification and contribution
against D&S for his breach of fiduciary duty in violation
of section 501(a) of the LMRDA. “A defendant held liable
under a federal statute has a right to indemnification or
contribution from another only if such right arises: (1)
through the affirmative creation of a right of action by

13a
Appendix C
Congress, either expressly or implicitly, or (2) under the
federal common law.” Doherty v. Wireless Broad. Sys. of
Sacramento, Inc., 151 F.3d 1129,1130-31 (9th Cir. 1998)
(citing Tex. Indus., Inc. v. Radcliff Materials, Inc., 451
U.S. 630, 638 (1981)).
In its order dismissing McCarron’s claims against
the Training Fund, the Court declined to find a right
to indemnity or contribution under the LMRDA.
Order, Docket No. 458-1 at 4. The Court determined
that Congress has not affirmatively created a right to
indemnity or contribution under the LMRDA, nor is
there such a right under federal common law. Id. The
Court therefore dismisses McCarron’s federal claims for
indemnity and contribution against D&S with prejudice.5
B. McCarron’s state-law claims against D&S are
preempted by ERISA.
The Court recited the relevant standard for ERISA
preemption in the order dismissing McCarron’s claims
against the Training Fund, but repeats it here. Docket
No. 458-1 at 7-8. ERISA provides for the comprehensive
federal regulation of multi-employer benefit plans such as
the Training Fund. Metropolitan Life Ins. Co. v. Parker,
436 F.3d 1109,1111 (9th Cir. 2006). To that end, ERISA
includes two preemption provisions that defeat certain
state law claims: “complete preemption” under ERISA
5. For a more detailed explanation of the Court’s reasoning on
this point, which applies here with equal force, refer to the Court’s
order granting the Training Fund’s motion to dismiss McCarron’s
third-party claims. Docket No. 458-1 at 4-7.

14a
Appendix C
section 502(a) and “conflict preemption” under ERISA
section 514(a). D&S argues that all of McCarron’s state-law
claims are preempted under ERISA’s conflict preemption
provisions. The Court agrees.
ERISA’s conflict preemption provisions provide that
ERISA “shall supersede any and all State laws insofar
as they may . . . relate to any employee benefit plan.”
29 U.S.C. § 1144(a) (emphasis added). For purposes of
ERISA preemption, a state-law claim “relate[s] to” an
ERISA plan if the claim either makes “reference to”
or holds a “connection with” an ERISA plan. Cal. Div.
of Lab. Standards Enf’t v. Dillingham Constr., N.A.,
Inc., 519 U.S. 316, 324 (1997). A state-law claim has an
impermissible “connection with” an ERISA plan when the
claim “governs... a central matter of plan administration,”
“interferes with nationally uniform plan administration,”
or “if acute, albeit indirect, economic effects of the state
law force an ERISA plan to adopt a certain scheme of
substantive coverage or effectively restrict its choice of
insurers.” Gobeillev. Liberty Mut. Ins. Co., — U.S. —, 136
S. Ct. 936, 943 (2016) (internal quotations omitted). The
Ninth Circuit takes a “purposive and relationship-focused
approach” to this analysis. Rutledge v. Seyfarth, Shaw,
Fairweather & Geraldson, 201 F.3d 1212,1221 (9th Cir.),
opinion amended on denial of reh’g, 208 F.3d 1170 (9th
Cir. 2000). Under the Ninth Circuit’s “relationship test,”
“a state law claim is preempted under the “connection
with” prong when the claim bears on an ERISA-regulated
relationship.” Paulsenv. CNF, Inc,, 559 F.3d 1061,1082 (9th
Cir. 2009) (citing Providence Health Plan v. McDowell,
385 F.3d 1168, 1172 (9th Cir. 2004)). Accordingly, “[t]he

/

N

15a
Appendix C
key to distinguishing between what ERISA preempts
and what it does not lies ... in recognizing that the
statute comprehensively regulates certain relationships:
for instance, the relationship between plan and plan
member, between plan and employer, between employer
and employee (to the extent an employee benefit plan is
involved), and between plan and trustee.” Gen. Amer. Life.
Ins. Co. v. Castonguay, 984 F.2d 1518,1521 (9th Cir. 1993)
(emphasis in original).
McCarron asserts state-law claims against D&S for
negligence, breach of fiduciary duty, breach of contract,
fraud, and conspiracy. Docket No. 329 HH 41-70. D&S
argues that McCarron’s state-law claims are preempted
by ERISA under the same reasoning the Court applied
to determine that McCarron’s state-law claims against
the Training Fund were preempted - the claims arise
from and depend on ERISA-governed relationships. Mot.,
Docket No. 500 at 12-15; Reply, Docket No. 502 at 2-4;
see also Docket No. 458-1 at 7-8. McCarron responds in
opposition that the Court’s findings with respect to the
Training Fund have no bearing on McCarron’s claims
against D&S, and that the claims here are not preempted
because they do not concern an ERISA-regulated
relationship, but the relationship between a law firm and
a union employee. Opp’n, Docket No. 501 at 5-6.
Here, like his state-law claims against the Training
Fund, McCarron’s state-law claims against D&S bear on
ERISA-regulated relationships. The Court recognizes
that traditional state-law claims, including those based in
tort and breach of contract, often fall outside the purview

16a
Appendix C
of ERISA preemption. See Castonguay, 984 F.2d at 1522.
However, the claims at issue here are preempted because
they affect relations between principal ERISA entities.
D&S acts as counsel to an ERISA party-in-interest, the
Council, and an ERISA plan, the Training Fund. D&S
is therefore an ERISA party-in-interest. Rutledge, 201
F.3d at 1221 (citing Nieto v. Ecker, 845 F.2d 868,873 (9th
Cir.1988)). Furthermore, the Court has already determined
that McCarron was not an individual client of D&S. Docket
Nos. 214,294. Rather, the relationship between McCarron
and D&S existed only in McCarron’s capacity as an ERISA
fiduciary to the Council. Accordingly, under McCarron’s
theory, an ERISA party-in-interest (D&S) is liable for
advice given to another ERISA party-in-interest (the
Council, through McCarron) regarding ERISA-regulated
transactions (the lease agreements) with an ERISA plan
(the Training Fund). In this context, the claims bear on
ERISA-regulated relationships. At the core of McCarron’s
state-law claims is whether the lease agreements were
prohibited under ERISA § 406(a) or fell within an
exception under § 408, which in turn informs whether
D&S’s conduct in the context of those transactions gives
rise to liability.6 Moreover, the Court already determined
that McCarron’s conspiracy claim, asserted against both
D&S and the Training Fund, is preempted because it
6. ERISA section 406(a) prohibits an ERISA fiduciary from
causing an ERISA plan to enter into any transaction that constitutes
the “direct or indirect... leasing!] of any property between the plan
and a party in interest,” 29 U.S.C. § 1106(a)(1)(A), unless the lease
agreement is for “office space, legal accounting, or other services
necessary for the establishment or operation of the plan” and “no
more than reasonable compensation is paid therefor,” Id. § 1108(b)(2).

17a
Appendix C
bears on ERISA-regulated relationships. Docket No. 458-1
at 8. The Court finds no compelling reason to alter that
conclusion as to the remaining state-law claims against
D&S. The Court finds that McCarron’s state-law claims
depend upon the ERISA-governed relationships between
the Training Fund, the Council, and D&S.
McCarron relies on Coyne & Delany Co. v. Selman,
98 F.3d 1454 (4th Cir. 1996) to support the argument that
his state-law claims do not implicate ERISA and thus are
not preempted. Opp’n, Docket No. 501 at 5-6. However,
the instant case is distinguishable from Coyne, which held
that an insurance malpractice claim was not preempted
in part because the claim did not affect relations between
principal ERISA entities. Coyne, 98 F.3d at 1471-72. The
court explained:
Defendants’ malpractice, if any, occurred before
the faulty plan went into effect and before
defendants began to act as Plan Administrator
and Plan Supervisor. Accordingly, the claim
is asserted by [plaintiff], in its capacity as
employer, against the defendants in their
capacities as insurance professionals, not in
their capacities as ERISA fiduciaries
The
malpractice claim would still exist if [plaintiff]
had hired someone other than the defendants
to serve as Plan Administrator and Plan
Supervisor.
Id. Here, as noted, D&S did not represent McCarron in
his individual capacity, and thus unlike the insurance

18a
Appendix C
professionals in Coyne, D&S advised McCarron only in the
context of his role as an ERISA fiduciary. Furthermore, in
Coyne, the existence of an ERISA plan was not critical to
the malpractice claim because the alleged wrongful acts
took place before any ERISA plan came into effect. Id. at
1472. Thus, Coyne rejected preemption in part because
the malpractice claim would still have existed if the
defendants had not procured any plan at all. Id. Here, by
contrast, the ERISA plan is critical to McCarron’s statelaw claims, none of which would exist independent of the
ERISA-regulated relationships between the Council, the
Training Fund, and D&S.
Therefore, McCarron’s state-law claims against
D&S are preempted under ERISA’s conflict preemption
provisions. The Court dismisses McCarron’s state law
claims against D&S with prejudice.7
7. The Court notes that McCarron’s attorney-advice claims
for negligence and breach of fiduciary duty are also barred by the
one-year statute of limitations under Cal. Code Civ. Proc. § 340.6.
See Prakashpalan v. Enstrom, Lipscomb & Lack, 223 Cal. App. 4th
1105,1121 (2014) (the statute does not apply to fraud, but does apply
to “breach of fiduciary duty arising out of the performance of an
attorney’s professional duties .. . [and] any act or omission arising
out of the performance of an attorney’s professional duties”).
D&S also advances several alternative arguments for dismissal
of McCarron’s state-law claims. Mot., Docket No. 500 at 15-22.
Because the Court has determined that McCarron’s state-law claims
must be dismissed with prejudice under ERISA preemption, the
Court declines to consider alternative arguments for dismissal. For
the same reason, the Court denies McCarron’s request for leave to
amend the First Amended Third-Party Complaint. Opp’n, Docket
No. 501 at 3-4.

19a
Appendix C
IV. CONCLUSION
For the foregoing reasons, the Court grants the
motion to dismiss with prejudice.
IT IS SO ORDERED.

20a
APPENDIX D — DENIAL OF REHEARING OF
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT, DATED
DECEMBER 16, 2018
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-55154
D.C. No. 2:14-cv-02762-JVS-JC
Central Distroct of California
Los Angeles
SOUTHWEST REGIONAL COUNCIL
OF CARPENTERS,
Plaintiff-Counter-ClaimDefendant-Appellee,
v.

MICHAEL MCCARRON, AKA WILLIAM
MICHAEL MCCARRON,
Defendant-Third-PartyPlaintiff-Appellant,
v.
DECARLO & SHANLEY, P.C.,
Third-Party-DefendantAppellee.

21a
Appendix D
ORDER
Before: THOMAS, Chief Judge, and TROSS and
SILVERMAN, Circuit Judges.
Appellant’s petition for panel rehearing is DENIED.

